IN THE SUPREME COURT OF THE UNITED STATES

BUNCICH, JOHN
Petitioner
vs.

No:

19-0456

USA
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

NOEL J. FRANCISCO
Solicitor General
Counsel of Record
October 11, 2019
cc:
J MICHAEL KATZ
THE LAW OFFICES OF J MICHAEL
KATZ
9013 INDIANAPOLIS BLVD.
HIGHLAND, IN 46321
KERRY C. CONNOR
ATTORNEY AT LAW
9013 INDIANAPOLIS BLVD.
SUITE C
HIGHLAND, IN 46321

